No. 20-.

IN THE
SUPREME COURT OF THE UNITED STATES

George Matthews and Nina Matthews
Petitioners,
vs.

David Merbaum and Andrew Becker
Respondents.
PROOF OF SERVICE
I, George Matthews and I, Nina Matthews, do swear or declare that on this
date, October 26. 2020. as required by the U.S. Supreme Court Rule 29,1 have
served the enclosed APPENDIX TO THE PETITION FOR A WRIT OF
CERTIORARI on each party proceeding or that party’s counsel, and on every other
person required to be serviced, by depositing an envelope containing the above
document in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The names and addresses of those served are as follows:
David Merbaum, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
Andrew Becker, 5755 North Point Pkwy, STE 284, Alpharetta, GA 30022
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 26. 2020
(Signature)
(Signature)

